      69366                  Federal Register / Vol. 68, No. 239 / Friday, December 12, 2003 / Proposed Rules

        Our practice is to make comments,                     Amphitheater Canyon, the coves                        California Air Resources Board,
      including names and addresses of                        between day markers 9 and 11, Fritch                    Stationary Source Division, Rule
      respondents, available for public review                Canyon, Short Creek, Evans Canyon and                   Evaluation Section, 1001 ‘‘I’’ Street,
      during regular business hours.                          Canal Canyon. Flat wake areas are                       Sacramento, CA 95814.
      Individual respondents may request that                 designated by buoys marked with ‘‘flat                South Coast Air Quality Management
      we withhold their home address from                     wake’’ or other similar markings. The                   District, 21865 E. Copley Drive,
      the rulemaking record, which we will                    location of those buoys may be adjusted                 Diamond Bar, CA 91765.
      honor to the extent allowable by law. If                by the Superintendent based on                          A copy of the rule may also be
      you wish us to withhold your name                       reservoir water levels.                               available via the Internet at http://
      and/or address, you must state this                       (3) The Superintendent may                          www.arb.ca.gov/drdb/drdbltxt.htm.
      prominently at the beginning of your                    temporarily limit, restrict or terminate              Please be advised that this is not an EPA
      comment. However, we will not                           access to the areas designated for PWC                website and may not contain the same
      consider anonymous comments. We                         use after taking into consideration                   version of the rule that was submitted
      will make all submissions from                          public health and safety, natural and                 to EPA.
      organizations or businesses, and from                   cultural resource protection, and other               FOR FURTHER INFORMATION CONTACT:
      individuals identifying themselves as                   management activities and objectives.                 Yvonne Fong, EPA Region IX, (415)
      representatives or officials or                           Dated: November 28, 2003.                           947–4117, fong.yvonnew@epa.gov.
      organizations or businesses, available                  Craig Manson,                                         SUPPLEMENTARY INFORMATION: This
      for public inspection in their entirety.                                                                      proposal addresses the following local
                                                              Assistant Secretary for Fish and Wildlife and
      List of Subjects in 36 CFR Part 7                       Parks.                                                rule: SCAQMD 1168. In the Rules and
        National Parks, Reporting and                         [FR Doc. 03–30556 Filed 12–11–03; 8:45 am]            Regulations section of this Federal
      recordkeeping requirements.                             BILLING CODE 4310–3A–P                                Register, we are approving this local
                                                                                                                    rule in a direct final action without
        In consideration of the foregoing, the                                                                      prior proposal because we believe these
      National Park Service proposes to                                                                             SIP revisions are not controversial. If we
      amend 36 CFR part 7 as follows:                         ENVIRONMENTAL PROTECTION
                                                                                                                    receive adverse comments, however, we
                                                              AGENCY
      PART 7—SPECIAL REGULATIONS,                                                                                   will publish a timely withdrawal of the
      AREAS OF THE NATIONAL PARK                              40 CFR Part 52                                        direct final rule and address the
      SYSTEM                                                                                                        comments in subsequent action based
                                                              [CA 296–0427b; FRL–7594–1]                            on this proposed rule.
        1. The authority citation for part 7                                                                          We do not plan to open a second
      continues to read as follows:                           Revisions to the California State                     comment period, so anyone interested
        Authority: 16 U.S.C. 1, 3, 9a, 460(q),                Implementation Plan, South Coast Air                  in commenting should do so at this
      462(k); Sec. 7.96 also issued under DC Code             Quality Management District                           time. If we do not receive adverse
      8–137(1981) and DC Code 40–721 (1981).                                                                        comments, no further activity is
                                                              AGENCY: Environmental Protection 

        2. Section 7.57 is amended by revising                                                                      planned. For further information, please
                                                              Agency (EPA).

      the section heading and adding                                                                                see the direct final action.
                                                              ACTION: Proposed rule.

      paragraph (h) to read as follows:                                                                               Dated: November 20, 2003.
                                                              SUMMARY:    EPA is proposing to approve               Laura Yoshii,
      § 7.57 Lake Meredith National Recreation                revisions to the South Coast Air Quality              Deputy Regional Administrator, Region IX.
      Area.
                                                              Management District (SCAQMD) portion                  [FR Doc. 03–30775 Filed 12–11–03; 8:45 am]
      *       *    *     *     *                              of the California State Implementation                BILLING CODE 6560–50–P
         (h) Personal watercraft (PWC). (1)                   Plan (SIP). These revisions concern
      PWC may operate on Lake Meredith                        volatile organic compound (VOC)
      except in the following closed areas:                   emissions from adhesives and sealants.
      stilling basin below Sanford Dam,                                                                             DEPARTMENT OF HEALTH AND
                                                              We are proposing to approve a local rule              HUMAN SERVICES
      within 750 feet of the Sanford Dam                      to regulate these emission sources under
      intake tower, and on the waters of the                  the Clean Air Act as amended in 1990                  Office of Inspector General
      Canadian River.                                         (CAA or the Act).
         (2) PWC may operate on Lake
                                                              DATES: Any comments on this proposal                  42 CFR Part 1001
      Meredith under the following
      conditions:                                             must arrive by January 12, 2004.
                                                              ADDRESSES: Send comments to Andy
                                                                                                                    Solicitation of New Safe Harbors and
         (i) Fueling of PWC is prohibited on                                                                        Special Fraud Alerts
      the lake, except at the marina fuel dock                Steckel, Rulemaking Office Chief (AIR–
      with an attendant providing the fuel                    4), U.S. Environmental Protection                     AGENCY: Office of Inspector General
      service, or onshore and out of the water.               Agency, Region IX, 75 Hawthorne                       (OIG), HHS.

         (ii) Carrying of fuel in an external or              Street, San Francisco, CA 94105–3901                  ACTION: Notice of intent to develop 

      portable container onboard a PWC is                     or e-mail to steckel.andrew@epa.gov, or               regulations. 

      prohibited.                                             submit comments at http://
         (iii) PWC may only be launched at                    www.regulations.gov.                                  SUMMARY: In accordance with section
      designated launch sites established by                     You can inspect copies of the                      205 of the Health Insurance Portability
      the Superintendent in accordance with                   submitted SIP revisions, EPA’s technical              and Accountability Act (HIPAA) of
      36 CFR 1.5 and 1.7.                                     support document (TSD), and public                    1996, this annual notice solicits
         (iv) PWC may not operate at greater                  comments at our Region IX office during               proposals and recommendations for
      than flat wake speed in the following                   normal business hours by appointment.                 developing new and modifying existing
      designated areas: North Turkey Creek,                      You may also see copies of the                     safe harbor provisions under the Federal
      Bugbee Canyon, North Canyon, North                      submitted SIP revisions by appointment                and State health care programs’ anti-
      Cove, South Canyon, Sexy Canyon,                        at the following locations:                           kickback statute (section 1128B(b) of the


VerDate jul<14>2003   11:49 Dec 11, 2003   Jkt 203001   PO 00000   Frm 00024   Fmt 4702   Sfmt 4702   E:\FR\FM\12DEP1.SGM   12DEP1
                             Federal Register / Vol. 68, No. 239 / Friday, December 12, 2003 / Proposed Rules                                                69367

      Social Security Act), as well as                        business practices which, although                    then can the OIG determine, in
      developing new OIG Special Fraud                        potentially capable of inducing referrals             consultation with the Department of
      Alerts.                                                 of business reimbursable under the                    Justice, whether it can effectively
      DATES: To assure consideration, public
                                                              Federal health care programs, would not               develop regulatory limitations and
      comments must be delivered to the                       be treated as criminal offenses under the             controls that will permit beneficial and
      address provided below by no later than                 anti-kickback statute and would not                   innocuous arrangements within a
      5 p.m. on February 10, 2004.                            serve as a basis for administrative                   subject area while, at the same time,
                                                              sanctions. The OIG safe harbor                        protecting the Federal health care
      ADDRESSES: Please mail or deliver your
                                                              provisions have been developed ‘‘to                   programs and their beneficiaries from
      written comments to the following                       limit the reach of the statute somewhat               abusive practices.
      address: Office of Inspector General,                   by permitting certain non-abusive
      Department of Health and Human                          arrangements, while encouraging                       II. Solicitation of Additional New
      Services, Attention: OIG–81–N, Room                     beneficial and innocuous arrangements’’               Recommendations and Proposals
      5246, Cohen Building, 330                               (56 FR 35952, July 29, 1991). Health                    In accordance with the requirements
      Independence Avenue, SW.,                               care providers and others may                         of section 205 of Public Law 104–191,
      Washington, DC 20201.                                   voluntarily seek to comply with these                 the OIG last published a Federal
         We do not accept comments by                         provisions so that they have the                      Register solicitation notice for
      facsimile (FAX) transmission. In                        assurance that their business practices               developing new safe harbors and
      commenting, please refer to file code                   will not be subject to any enforcement                Special Fraud Alerts on December 9,
      OIG–81–N. Comments received timely                      action under the anti-kickback statute or             2002 (67 FR 72894). As required under
      will be available for public inspection as              related administrative authorities.                   section 205, a status report of the public
      they are received, generally beginning                     To date, the OIG has developed and                 comments received in response to that
      approximately three weeks after                         codified in 42 CFR 1001.952 a total of                notice is set forth in appendix G to the
      publication of a document, in Room                      22 final safe harbors that describe                   OIG’s Semiannual Report covering the
      5541 of the Office of Inspector General                 practices that are sheltered from                     period April 1, 2003 through September,
      at 330 Independence Avenue, SW.,                        liability.                                            30, 2003.1 The OIG is not seeking
      Washington, DC, on Monday through                                                                             additional public comment on the
      Friday of each week from 8 a.m. to 4:30                 B. OIG Special Fraud Alerts
                                                                                                                    proposals listed in appendix G at this
      p.m.
                                                     The OIG has also periodically issued                time. Rather, this notice seeks
      FOR FURTHER INFORMATION CONTACT: Joel 
                 Special Fraud Alerts to give continuing               additional recommendations regarding
      Schaer, (202) 619–0089, OIG                             guidance to health care providers with                the development of proposed or
      Regulations Officer.                                    respect to practices the OIG finds                    modified safe harbor regulations and
      SUPPLEMENTARY INFORMATION:                              potentially fraudulent or abusive. The                new Special Fraud Alerts beyond those
                                                              Special Fraud Alerts encourage industry               summarized in appendix G to the OIG
      I. Background                                           compliance by giving providers                        Semiannual Report referenced above.
      A. The OIG Safe Harbor Provisions                       guidance that can be applied to their
                                                              own practices. The OIG Special Fraud                  Criteria for Modifying and Establishing
        Section 1128B(b) of the Social                        Alerts are intended for extensive                     Safe Harbor Provisions
      Security Act (the Act) (42 U.S.C. 1320a–                distribution directly to the health care                In accordance with section 205 of
      7b(b)) provides criminal penalties for                  provider community, as well as those                  HIPAA, we will consider a number of
      individuals or entities that knowingly                  charged with administering the Federal                factors in reviewing proposals for new
      and willfully offer, pay, solicit or                    health care programs.                                 or modified safe harbor provisions, such
      receive remuneration in order to induce                   In developing these Special Fraud                   as the extent to which the proposals
      or reward business reimbursable under                   Alerts, the OIG has relied on a number                would affect an increase or decrease
      the Federal health care programs. The                   of sources and has consulted directly                 in—
      offense is classified as a felony and is                with experts in the subject field,                      • Access to health care services;
      punishable by fines of up to $25,000                    including those within the OIG, other                   • The quality of services;
      and imprisonment for up to 5 years. The                 agencies of the Department, other                       • Patient freedom of choice among
      OIG may also impose civil money                         Federal and State agencies, and those in              health care providers;
      penalties, in accordance with section                   the health care industry. To date, the                  • Competition among health care
      1128A(a)(7) of the Act (42 U.S.C. 1320a–                OIG has issued 12 individual Special                  providers;
      7(a)(7)), or from the Federal health care               Fraud Alerts.                                           • The cost to Federal health care
      programs, in accordance with section
                                                              C. Section 205 of Public Law 104–191                  programs;
      1128(b)(7) of the Act (42 U.S.C. 1320a–                                                                         • The potential overutilization of the
      7(b)(7)).                                                 Section 205 of Public Law 104–191                   health care services; and
        Since the statute on its face is so                   requires the Department to develop and                  • The ability of health care facilities
      broad, concern has been expressed for                   publish an annual notice in the Federal               to provide services in medically
      many years that some relatively                         Register formally soliciting proposals                underserved areas or to medically
      innocuous commercial arrangements                       for modifying existing safe harbors to                underserved populations.
      may be subject to criminal prosecution                  the anti-kickback statute and for                       In addition, we will also take into
      or administrative sanction. In response                 developing new safe harbors and                       consideration other factors, including,
      to the above concern, the Medicare and                  Special Fraud Alerts.                                 for example, the existence (or
      Medicaid Patient and Program                              In developing safe harbors for a
                                                                                                                    nonexistence) of any potential financial
      Protection Act of 1987, section 14 of                   criminal statute, the OIG is required to
                                                                                                                    benefit to health care professionals or
      Public Law 100–93, specifically                         engage in a thorough review of the range
                                                                                                                    providers that may vary based on their
      required the development and                            of factual circumstances that may fall
      promulgation of regulations, the so-                    within the proposed safe harbor subject                 1 The OIG Semiannual Report can be accessed
      called ‘‘safe harbor’’ provisions,                      area so as to uncover potential                       through the OIG Web site at http://oig.hhs.gov/
      specifying various payment and                          opportunities for fraud and abuse. Only               publications/semiannual.html.



VerDate jul<14>2003   11:49 Dec 11, 2003   Jkt 203001   PO 00000   Frm 00025   Fmt 4702   Sfmt 4702   E:\FR\FM\12DEP1.SGM   12DEP1
      69368                  Federal Register / Vol. 68, No. 239 / Friday, December 12, 2003 / Proposed Rules

      decisions whether to (1) order a health                 Room PL–401, 400 Seventh Street, SW.,                 The Need for Periodic Underwater
      care item or service, or (2) arrange for                Washington, DC 20590–0001. It is open                 Inspections
      a referral of health care items or services             from 10 a.m. to 5 p.m., Monday through                   On July 24, 1987, the fishing vessel
      to a particular practitioner or provider.               Friday, except Federal holidays. All                  Sea Chief struck and ruptured an 8 inch
      Criteria for Developing Special Fraud                   written comments should identify the                  submerged natural gas liquids pipeline
      Alerts                                                  docket and notice numbers stated in the               in the Gulf of Mexico. The escaping gas
                                                              heading of this notice. Anyone desiring               ignited and exploded, killing two crew
        In determining whether to issue                       confirmation of mailed comments must                  members. A similar accident occurred
      additional Special Fraud Alerts, we will                include a self-addressed stamped                      on October 3, 1989, when the fishing
      also consider whether, and to what                      postcard.                                             vessel Northumberland struck and
      extent, the practices that would be
                                                                                                                    ruptured a 16 inch submerged gas
      identified in a new Special Fraud Alert                 Privacy Act Statement
                                                                                                                    pipeline, killing 11 crew members.
      may result in any of the consequences
                                                                Anyone is able to search the                           The National Transportation Safety
      set forth above, as well as the volume
                                                              electronic form of all comments                       Board (NSTB) investigated the
      and frequency of the conduct that
                                                              received into any of our dockets by the               Northumberland accident and found
      would be identified in the Special Fraud
                                                              name of the individual submitting the                 that the probable cause of the accident
      Alert.
                                                              comment (or signing the comment, if                   was the failure of the pipeline operator
        A detailed explanation of
                                                              submitted on behalf of an association,                to maintain the pipeline at the burial
      justifications for, or empirical data
                                                              business, labor union, etc.). You may                 depth to which it was initially installed.
      supporting, a suggestion for a safe
                                                              review DOT’s complete Privacy Act                     NTSB also found that the failure of
      harbor or Special Fraud Alert would be
                                                              Statement in the Federal Register                     RSPA/OPS to require pipeline operators
      helpful and should, if possible, be
                                                                                                                    to inspect and maintain submerged
      included in any response to this                        published on April 11, 2000 (Volume
                                                                                                                    pipelines in a protected condition
      solicitation.                                           65, Number 70; pages 19477–78), or you
                                                                                                                    contributed to the accident. The NTSB
        Dated: November 26, 2003.                             may visit http://dms.dot.gov.
                                                                                                                    subsequently issued Safety
      Dara Corrigan,                                          Electronic Access                                     Recommendation P–90–29, which
      Acting Principal Deputy Inspector General.                                                                    directed RSPA/OPS to ‘‘develop and
      [FR Doc. 03–30803 Filed 12–11–03; 8:45 am]                 You may also submit written                        implement with the assistance of the
      BILLING CODE 4150–04–P
                                                              comments to the docket electronically.                Mineral Management Service (MMS),
                                                              To submit comments electronically, log                the United States Coast Guard (USCG),
                                                              onto the following Internet Web                       and the United States Army Corp of
      DEPARTMENT OF TRANSPORTATION                            address: http://dms.dot.gov. Click on                 Engineers (USACE), effective methods
                                                              ‘‘Help & Information’’ for instructions               and requirements to bury, protect,
      Research and Special Programs                           on how to file a document                             inspect the burial depth of and maintain
      Administration                                          electronically.                                       all submerged pipelines in areas subject
                                                                                                                    to damage by surface vessels and their
                                                              General Information                                   operations.’’
      49 CFR Parts 192 and 195
      [Docket Number RSPA–97–3001]                              You may contact the Dockets Facility                Joint Task Force Report on Offshore
                                                              by phone at (202) 366–9329, for copies                Pipelines
      RIN 2137–AC54                                           of this proposed rule or other material
                                                                                                                      In response to this recommendation a
                                                              in the docket. All materials in this                  multi-agency task force on offshore
      Pipeline Safety: Periodic Underwater
                                                              docket may be accessed electronically at              pipelines was formed to study the issue.
      Inspections
                                                              http://dms.dot.gov.                                   The task force consisted of
      AGENCY: Research and Special Programs 
                                                                       representatives from RSPA/OPS, USCG,
                                                 FOR FURTHER INFORMATION CONTACT: L.E.
      Administration (RSPA), DOT.
               Herrick by phone at (202) 366–5523, by                             Department of the Interior, MMS,
      ACTION: Notice of proposed rulemaking.
 fax at (202) 366–4566, or by e-mail at                                Department of Commerce, National
                                                 le.herrick@rspa.dot.gov, regarding the                             Oceanic and Atmospheric
      SUMMARY: This proposed rule would                                                                             Administration/National Oceans
      amend the pipeline safety regulations to subject matter of this proposed rule.                                Service, Department of Defense/USACE,
      require operators of gas and hazardous     General information about RSPA’s
                                                 Office of Pipeline Safety (OPS) programs                           Louisiana Office of Conservation, and
      liquid pipelines to have procedures for                                                                       the Texas Railroad Commission.
      periodic inspections of pipeline           may be obtained by accessing OPS’s
                                                 Internet page at http://ops.dot.gov.                                 The task force reviewed information,
      facilities in offshore waters less than 15                                                                    views, and concerns provided by the
      feet deep or crossing under a navigable    SUPPLEMENTARY INFORMATION:                                         government and the marine and
      waterway. These inspections would                                                                             pipeline industries. The assessment
      ensure that the pipeline is not exposed    I. Background
                                                                                                                    focused on the extent and adequacy of
      or a hazard to navigation.                 RSPA/OPS Pipeline Safety Mission                                   federal regulations, the technology for
      DATES: Interested persons are invited to                                                                      determining pipeline location and
      submit written comments by February           RSPA/OPS has responsibility for                                 cover, the extent and availability of
      10, 2004. Late-filed comments will be      ensuring safety and environmental                                  maps and charts depicting the location
      considered to the extent practicable.      protection against risks posed by the                              of pipelines, and possible government
      ADDRESSES:                                 nation’s approximately two million                                 initiatives to enhance safety.
                                                 miles of gas and hazardous liquid                                    The task force concluded that exposed
      Filing Information                         pipelines. RSPA/OPS shares                                         pipelines pose a potential risk to
         You may submit written comments by responsibility for inspecting and                                       navigation safety, especially for
      mail or delivery to the Dockets Facility,  overseeing the nation’s pipelines with                             mariners operating in the shallow, near­
      U.S. Department of Transportation,         State pipeline safety offices.                                     shore waters. The task force also


VerDate jul<14>2003   11:49 Dec 11, 2003   Jkt 203001   PO 00000   Frm 00026   Fmt 4702   Sfmt 4702   E:\FR\FM\12DEP1.SGM   12DEP1
